                                                                    010 Audit Report No. 08-01


Executive Digest

The Presidential Library system is comprised of twelve Presidential Libraries nationwide.
This network of libraries is administered by the Office of Presidential Libraries, which is
part of the National Archives and Records Administration (NARA), located in College
Park, MD. These are not traditional libraries, but rather repositories for preserving and
making available historical materials (e.g. papers, records, artifacts) ofD.S. Presidents
since Herbert Hoover. Items received from the President or his representatives, or
acquired from other sources, are to be added to the museum collection of the library and
responsible care is to be provided for them at all times. Among the holdings entrusted to
these libraries are approximately 540,000 artifacts maintained by the Presidential
Libraries museum staffs. These items include gifts from foreign heads of state,
luminaries and common citizens. Holdings range from high value items, including
firearms, jewelry, works of art, coins and currency; to tee shirts, trinkets and curiosities.
Museum staff are responsible for preserving and exhibiting artifacts to promote public
understanding of the Presidential administration, the history of the period, and the career
of the President.

The NARA Office ofInspector General (OIG) performed an audit of the controls over
artifacts to determine if the process of accounting for and safeguarding Presidential
Library artifacts was adequate. This audit was identified in the OIG's FY 2006 annual
work plan. In addition, as field work commenced, the OIG received an inquiry from
United States Senator Charles Grassley's office asking that we conduct a detailed audit of
the operations of Presidential Libraries and the activities ofNARA to protect and
preserve these collections.

Our audit revealed opportunities to strengthen accountability and control over artifacts.
We found that (a) NARA is not accounting for artifacts in a timely manner, (b) technical
and management controls over the automated database (i/O) used by NARA to manage
its collection need to be strengthened, (c) opportunities exist to deaccession items that do
not warrant long term retention and drain scarce resources from higher priority artifacts,
(d) some artifacts are not maintained in appropriate space, and (e) NARA does not have a
comprehensive list identifying "at risk" artifacts in need of preservation. As a result of
these weaknesses, NARA lacks assurance that (1) current collections represent all of the
artifacts with which NARA was originally entrusted, (2) missing items will be identified
in a timely manner, and (3) items receive the conservation treatment necessary to ensure
their continued preservation.

We also found that while control weaknesses varied by library, there was a near universal
breakdown in controls at the Ronald Reagan Library which have resulted in the library's
inability to adequately account for and safeguard its museum collection. Of the
approximately 100,000 artifacts maintained by the Ronald Reagan Library, we found the
library had the information necessary to locate less than 20 percent of them. Based on
sampling performed, we were unable to locate and adequately account for 13 items, one
of them a vase that was noted as being located during the FY 2006 inventory of high
value objects. At the time of this audit, the OIG investigative unit was responding to



                                                                                             1
                                                                  OIG Audit Report No. 08-01


allegations of theft of artifacts specific to the Reagan Library. This investigation was
being adversely impacted due to internal control deficiencies cited in the body of this
report. Finally, we noted deteriorating items, broken picture frames and glass, and
valuable vases and sculptures at risk of damage due to inappropriate storage in a locale
noted for the potential of seismic activity.

The weaknesses identified in this report contribute to NARA's preexisting material
weaknesses in preservation and collections security.

NARA and the Office of Presidential Libraries have instituted some steps in order to
improve the management and safeguarding of artifacts, such as the procurement of
collections management software intended to bring uniformity to the collections
management process, and the identification of facility upgrades necessary for improving
the environmental conditions under which items are stored. In 1998, a curatorial unit was
formed and professional museum procedures were put into place to better account for
Presidential gifts as they were placed into courtesy storage. This is expected to result in
much more accurate initial museum collection inventories starting with the gifts of the
current Bush presidency, as long as staffing for this unit keeps pace with the growth in
Presidential gifts and evolving museum practices. Furthermore, over the past decade, the
Office of Presidential Libraries has better defined the differences in museum and archives
programs. This has contributed to better defining job descriptions for museum staff and
developing policy and procedures geared specifically toward managing museum
collections.

Some of the collections management challenges facing the agency are inherently due to
the age of certain collections, questions surrounding the accuracy and completeness of
legacy documentation, and the age of some of the facilities (for example, the Franklin D.
Roosevelt Presidential Library was constructed in 1943). In more recent years the pre­
eminent challenge is the sheer size of museum collections at modem presidential libraries
which have grown exponentially while staffing has not kept pace. Statistics confirm
modem era Presidents have received markedly more artifacts then did their predecessors.
       ff)



This report contains five recommendations, some of which contain sub­
recommendations, which upon adoption we believe will help NARA better account for,
safeguard, and preserve artifacts entrusted to its care.




                                                                                           2
                                                                   OIG Audit Report No. 08-01


Background

The basic statutory authorities governing NARA's acceptance authority for presidential
gifts and other artifact materials are 44 U.S.C. 2101, 44 U.S.c. 2111,44 U.S.c. 2112,
and 44 U.S.c. 2201. Most gifts received by the President are accepted by him on behalf
of the government as donated historical materials and later transferred to the Archivist for
eventual deposit in his Presidential Library. These gifts are received by the Archivist
under the provisions of 44 U.S.C. 2101, 2111 and 2112. The National Archives and
Records Administration Act is the basic statutory authority by which Presidential gifts are
transferred to the Archivist. Section 44 U.S.C. 2101, part 2 defines the scope of what
qualifies as "historical materials including books, correspondence, documents, papers,
pamphlets works of art, models, pictures, photographs, plats, maps, films, motion
pictures, sound recordings, and other objects or materials having historical or
commemorative value." Section 2111 of this Act gives the Archivist authority to accept
these materials when he considers it to be in the public interest. In addition, the
Presidential Libraries Act of 1955 and 1986 establishes the Presidential Library system
and defines what the Archivist can accept in terms of a facility and materials. Section C
states that the Archivist "may exercise, with respect to papers, documents, or other
historical materials deposited under this section, or otherwise, in a Presidential archival
depository, all the functions and responsibilities otherwise vested in him pertaining to
Federal records or other documentary materials in his custody or under his control."
Finally, the Presidential Records Act, 44 U.S.C. 2201-2207, establishes additional control
over artifacts that may qualify as Presidential records. By the definition stated in
2201(2), this would include "documentary materials, or any reasonably segregable
portion thereof, created or received by the President, his immediate staff, or a unit or
individual of the Executive Office of the President whose function is to advise and assist
the President, in the course of conducting activities which relate or have an effect upon
the carrying out of the constitutional, statutory, or other official or ceremonial duties of
the President." This statutory authority also provides for the designation of a Library
Director at each Presidential Library "who shall be responsible for the care and
preservation of such records."

NARA 101, NARA Organization and Delegation of Authority, cedes responsibility to the
Assistant Archivist of Presidential Libraries, for:
   • 	 Planning, directing, and coordinating comprehensive programs for the acquisition,
       storage, preservation, review, servicing, and disposal of Presidential records,
       Federal records, and donated historical materials (including artifacts) in
       Presidential libraries and Presidential materials projects.
   • 	 Developing policies and procedures for the management and operation of 

       Presidential libraries and Presidential materials projects. 

   • 	 Developing, coordinating, and monitoring overall plans, programs, and resources
       allocations for Presidential libraries and Presidential materials projects.




                                                                                            3
                                                                  OIG Audit Report No. 08-01


It also delegates authority to the Presidential Libraries for:
    • 	 Soliciting, negotiating, and reviewing offers to donate historical materials.
    • 	 Accepting for deposit, or affecting the transfer of, historical materials that have
        been determined by the Archivist to have sufficient value to warrant continued
        preservation.
    • 	 Establishing physical and management controls over the records [including
        artifacts], including the storage, arrangement, and security of historical records
        and the space housing them.
    • 	 Inspecting historical materials to determine the state of their preservation;
        identifying those requiring preservation and repair, and; carrying out measures for
        their appropriate treatment.

Objectives, Scope, and Methodology

The objective of our audit was to determine if sufficient management controls exist to
account for and safeguard library artifacts. The review was conducted at Archives II in
College Park, MD, with representatives of the Office of Presidential Libraries (NL). We
visited six Presidential libraries and museums - William Jefferson Clinton, Gerald R.
Ford, George Bush, Franklin D. Roosevelt, John F. Kennedy, and Ronald Reagan.

To accomplish our objectives we reviewed applicable NARA guidance, including
Libraries 1401, Presidential Libraries Manual; NARA 101, NARA Organization and
Delegation of Authority; NARA 1571, Archival Storage Standards; NARA 1572,
Security for NARA Holdings, and; draft inventory and deaccesioning guidance for
Presidential Libraries and Museums. In addition, we reviewed federal guidance
contained in Title 44, Chapter 22 of the United States Code. We also reviewed
performance measures related to artifacts stored in appropriate space as well as
information developed by NL in response to an inquiry from Senator Grassley's office.
We reviewed records and documentation pertaining to artifacts, i/O entries, past
inventories, and performed limited sampling at the six libraries we visited. This limited,
judgmental sampling was used to validate inventory information provided by the
libraries. Finally, we reviewed the Building Condition Survey Schedule, Repair and
Renovation Plan for FY 2007, and the Capital Improvement Plan.

This performance audit was conducted in accordance with generally accepted
government auditing standards (GAGAS) between March 2007 and July 2007. These
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                                                                             4
                                                                                DIG Audit Report No. 08-01



Artifacts Have Not Been Accounted for in a Timely Manner

Office of Inspector General auditors identified that Presidential Libraries were not
verifying the items in their collection in a timely manner. This condition can be
attributed to several factors, including inadequate resources, policies, procedures and
competing priorities. Effective internal controls include the procedures used to provide
reasonable assurance that resources/assets are adequately safeguarded and efficiently
used and ensure that transactions and events are promptly and accurately recorded so as
to maintain their relevance to management in controlling operations and making
decisions. This condition creates an operating environment in which NARA finds itself
unable to ensure Presidential artifacts are properly accounted for and missing items are
identified in a timely manner to support appropriate analysis and investigative activity as
warranted.

The Office of Presidential Libraries does not maintain a centralized index or inventory
for all Presidential gifts. Individual Presidential Libraries are at various stages in
physically verifying their inventory and capturing associated information, such as item
condition, in i/O!, the automated collections management database deployed in 2003.
The reliance that can be placed on legacy records (including automated databases) which
purport to reflect the items in a collection vary by library due to uneven controls and the
chaotic and uncontrolled history of earlier collections prior to their transfer to the
government. These weaknesses, especially inherent in earlier collections, make it
difficult to establish with certainty the completeness of some collections, and speak to the
need for conducting full physical inventories as a means of establishing a verifiable
baseline from which the collection can be properly managed and accounted for going
forward.

Our review revealed that more than half of the Presidential libraries have not yet
completely inventoried their artifacts. Of the seven libraries that have not yet inventoried
all of their artifacts, one is projected to complete a full inventory in 2008, five are
projected to complete full inventories anywhere from 2018 to 2093, and one library is
unable to establish a projected completion date. Of the five libraries that have completed
a 100 percent inventory of their artifacts, it has taken these libraries between 24 and 53
years to complete. We also noted none of the libraries which completed a 100 percent
inventory transmitted this inventory to NL for safekeeping as a control copy. We believe
that with the questions surrounding the validity oflegacy documentation for older
collections and the lack of controls over the deletion of records from i/O, it is important
to not only complete a full inventory as a collection baseline, but to also carefully secure
this baseline as a control mechanism over the collection.




I i/O is the automated collections management database implemented by NL in 2003 to better manage

museum collections. This application is intended to combine and standardize inventory, description, and
tracking of artifacts, currently in multiple sources and a number of formats, into one central and searchable
platform for each library.


                                                                                                            5
                                                                           OIG Audit Report No. 08-01




Pictured: Bronze dagger from the Kingdom of Judah (8 th - 6th Century BC) and silver olive branch. A
gift from Binyamin Netanyahu, Prime Minister ofIsrael. These high value objects were found packed in a
box awaiting inventory at the Clinton Presidential Library.

At those libraries that have completed a full inventory, a comparison of the completed
physical inventory against legacy documentation resulted in the identification of 783
unaccounted for items          fO               In their response to a Congressional
inquiry, NL characterizes these as legacy inventory issues stemming from inaccurate and
incomplete records. While we agree that this is a plausible explanation we cannot rule
out that items may have been inappropriately removed from the collection.

This condition resulted from the following factors:

        (a) Operational and Resource Constraints. Once a president leaves office, his
        collection is transferred to a project site, which is temporary space where the
        items are held until the President's library is completed. Because this is
        temporary space, and the collection will be moved to the presidential library
        within 3-4 years, the Office of Presidential Libraries does not find it advisable to
        unpack, inventory, and repack all of the items during this interim period given the
        limitations of typical project facilities, staffing, and material resources.
        Furthermore, during the project phase, an emphasis is placed on identifying and
        preparing items for the public display areas of the library, which taxes resources
        and further delays a complete physical inventory. Finally, the size of the
        collections has grown exponentially for the most recent Presidents (Reagan,
        Clinton, and Bush collections average 93,648 items compared with an average of
        29,012 items for the collections of the prior Presidents), but the number of
        museum staff at the Presidential libraries has not kept pace

        (b) Inadequate internal policy concerning the inventory process. Office of
        Presidential Libraries guidance for inventorying segregates artifacts into two
        classes: (1) high value objects (HVOs), which are items of high value or highly
        vulnerable to theft (e.g. jewelry, coins); and (2) non-high value objects (non­
        HVOs), which are all items not included as high value objects. This guidance
        dictates high value objects are to be identified and inventoried annually and the
        remainder of the collection can be inventoried at 5 percent or 1,000 items per
        year, whichever is less. Under these guidelines a full inventory is not completed
        within a reasonable period of time. For example, the Clinton library estimates


                                                                                                         6
                                                                    DIG Audit Report No. 08-01


       they will not have inventoried all of their artifacts until 2093. Additionally, until
       a 100 percent physical inventory has been completed, it cannot be assumed all
       HVOs have been identified and are being accounted for annually, as the auditors
       identified instances in which HVOs were found commingled among non-HVO
       items in uninventoried containers.

       NL guidance (Libraries 1401) does not address the issue of unlocated or missing
       artifacts. During the conduct of our audit we reviewed revised inventory
       guidance containing much more detailed information on the inventory process.
       Auditors were informed libraries began using this revised guidance at different
       times, although the guidance has not been formally issued or incorporated into
       Libraries 1401. The revised inventory guidance states an object is missing if it is
       not in its proper location and a detailed search does not locate the item.
       Furthermore, missing items are not declared as lost (instead they are maintained
       in a "search file" for further investigation) until such time as a subsequent full
       inventory is completed and the item still remains unlocated. However, because
       inventorying ofnon-HVOs is occurring at the rate of 5 percent or 1,000 items
       annually (whichever is less), full inventories are not completed within a
       reasonable amount of time, and therefore missing items are not declared as lost
       within a reasonable timeframe. For example, excluding items currently identified
       as HVOs, an item at the Bush library noted as missing during an initial 1,000 item
       inventory today, would not be declared as lost for another 15 years (in the year
       2022 when a full inventory is projected to be completed, assuming the item was
       not located during the completion of the full inventory). Finally, once a 100
       percent initial inventory has been completed, this guidance would result in re­
       inventorying or verifying a non-HVO item once every 20 years at best. For
       libraries with more than 20,000 artifacts, of which there are currently nine, this
       process would take much longer. As a result of the infrequency with which non­
       HVO items are inventoried the likelihood of discovering removed or missing
       items in a timely manner is greatly diminished.

GAO Standards for Internal Controls in the Federal Government require control activities
establish adequate physical control to secure and safeguard assets, and transactions and
events are recorded in an accurate and timely manner. NARA lacks assurance the
collections they maintain today contain all of the artifacts with which they were
originally entrusted. Additionally, NARA lacks assurance missing items will be
identified in a timely manner so as to reasonably allow for resolution in such instances.
NL states that because of the chaotic and uncontrolled history surrounding earlier
collections, only two items since 1990 have been determined to be officially missing, and
the remaining unlocated or missing items may be the result of inaccurate inventory
records (i.e. legacy documentation from the White House incorrectly reflecting an item
was transferred to NARA), Of, in the case of pre-Presidential Records Act libraries (e.g.
Hoover through Johnson Libraries), the result of items which were appropriately
withdrawn but not properly documented. While this is a likely explanation for some
percentage of the unlocated items, the possibility exists some of these items were
improperly removed from the collections. However, it is impossible to determine what



                                                                                               7
                                                                      OIG Audit Report No. 08-01


percentage of unlocated items fall into each of these categories and it is likely many
instances will go unresolved.

Recommendation 1

The Assistant Archivist for Presidential Libraries (NL) should ensure that:

a. 	 libraries perform an initial physical inventory of their entire collection within a
     reasonable timeframe;

b. 	 the results of the completed physical inventory are transmitted to NL and
     appropriately secured to serve as control or master copies establishing a reliable _
     baseline for each library's museum collection;

c. 	 the results of the completed physical inventory are compared against legacy
     documentation about the collection in order to identifY any discrepancies, and
     undertake to satisfactorily resolve these discrepancies;

d. 	 once an initial physical inventory has been completed, non-HVOs are re­
     inventoried/verified in a timelier manner than the current 5 percent or 1,000 items
     annually.

Management Response

Management concurred with our recommendations.



Controls Over the Automated Collections Management System (i/O) Need to be
Strengthened

Controls over the automated collections management system (i/O) do not provide a
sufficient safeguard against the unwarranted deletion of records (e.g. items) and the
system has not been uniformly implemented across all libraries. This condition exists
because management procured a collections management system that does not have audit
logging capabilities (allowing for the identification, documentation, and review of
deletions) and data standards were not formulated prior to system deployment. Minimum
security requirements for federal information systems require that the actions of
individual information system users can be uniquely traced to individual users and
internal control standards dictate that (a) transactions and other significant events need to
be clearly documented and available for review and (b) managers need relevant and
reliable information about their programs in order to determine whether they are meeting
their goals for accountability and for efficient and effective use of resources. As a result,
NL lacks (a) the ability to identifY, verifY, and validate deletions from the i/O database,
and (b) timely, uniform data about museum collections to support management decisions.




                                                                                               8
                                                                     DIG Audit Report No. 08-01


The automated collections management database, i/O, does not create audit logs for
deleted items. While access controls limited the number of i/O users with the ability to
delete records at each Presidential library , documenting and reviewing deletions from the
artifact inventory management system is an essential safeguard in protecting against
unintentional and intentional deletions. For example, the curator at the Clinton library
and museum estimated she had deleted between 50 and 100 records from i/O because
they were duplicate or erroneous entries. However, documentation concerning these
deletions was not available for review since the collections management system does not
support audit logging. This is problematic because organizations must ensure that the
actions of individual information systems users can be uniquely traced to individual users
so that they can be held accountable for their actions. As a result, the libraries lack the
necessary effective internal controls which incorporate the recording and documenting of
transactions and other significant events, allowing for their review.

Our review also revealed i/O use is not uniform among the libraries. For instance, we
observed that some, but not all libraries are using i/O to track loan information and record
detailed information about the condition and preservation status of items, and have
developed queries allowing the extraction of such information for use in managing the
collection. We also found that the extent to which libraries utilize i/O to link to pictures
of artifacts varies,from 1 percent or less of the collection at eight libraries, to 100 percent
of the collection at one library. This condition was the result of several factors:

       (a) A lack of data standards. Data standards were not developed prior to
       acquisition of the system and therefore consistently defined and formatted data
       elements are not identified or consistently applied by i/O users. NL is addressing
       this and currently has a data standards working group developing data standards
       for i/O.

       (b) Insufficient resources and competing priorities. The three most recent
       Presidential libraries - Reagan (100,200 items), Bush (97,000 items), and Clinton
       (nearly 84,000 items) - have seen enormous growth in the size of their collections
       compared to earlier libraries, but without an attendant increase in museum staff.
       In addition, tasks such as display preparation and completion of a full inventory
       have, and will continue to compete with tasks such as the preparation of condition
       reports and photographing of items. The disparity between staffing levels and the
       size of the collections at newer libraries has necessitated a triage approach to
       collections management.

       (c) A lack of guidance. NL does not have guidance concerning photographing
       and linking digital images of artifacts to the artifact record in i/O. While
       insufficient resources and competing priorities helps to explain the low percentage
       of artifacts linked to a digital image at the more recent libraries, we believe that
       the lack of guidance in this area has contributed to this condition at the older
       libraries.




                                                                                              9
                                                                   OIG Audit Report No. 08-01


Data standards are used to govern the conventions for identifying, naming, and
formatting data. Having such standards in place helps ensure that the data being
collected and maintained within an organization are structured and maintained so as to be
accessible, understandable, and comparable to everyone in the organization. Such
reliable and relevant information is necessary for an agency to run and control its
operations.

As a result of these conditions, items could be deleted from the collections management
database, either inadvertently or to cover nefarious action, because NL lacks the ability to
identify, verify, and account for items deleted from the i/O database. In addition, NL
lacks uniform data and reporting necessary for making informed management decisions,
such as the information necessary to uniformly identify the universe of artifacts "at risk"
of deterioration. Finally, linking an item with its image would aid in its identification
during inventorying or should a concern arise regarding the authenticity of an item, and
could provide a visual record of item condition.

Recommendation 2

The Assistant Archivist for Presidential Libraries should ensure that:

a. 	 records deleted from i/O are identified, reviewed, and verified by an individual not
     directly associated with the management of the collection, and; records of such
     actions are maintained and available for review;

b. 	 the current data standards working group develop standards for the capture of
     preservation and loan information in i/O;

c. 	 policy and standards are developed for linking digital images of items to their record
     in i/O, giving priority to photographing HVOs and outgoing loan items.

Management Response

Management concurred with our recommendations. Concerning recommendation 2.a.,
management concurred with the intent of the recommendation but may propose an
alternative solution to achieve this goa1.




                                                                                            10
                                                                                  OIG Audit Report No. 08-01


Opportunities May Exist to Deaccession1 Items from the Museum Collections

A number oflibraries are maintaining multiple similar items (e.g. dozens oft-shirts,
bumper stickers, campaign buttons) and other artifacts of questionable value. 3 Statutory
authorities governing both Presidential donated historical materials and Presidential
records give the Archivist the authority to dispose of (i.e. deaccession) items. However,
because of a lack of guidance, sensitivity towards donors who may be offended by the
disposal of their gifts, and competing priorities, there has not been a systematic effort to
identify and dispose of gifts that do not warrant long-term retention. The retention of
such artifacts, especially at modem era libraries where collections are large and space is
effectively limited by the Presidential Libraries Act (PLA), siphons resources from tasks
associated with safeguarding and preserving more valuable items in the museum's
collection.




                                                        Pictured: Examples of non-high value objects
                                                        maintained by Presidential libraries.




NL staff agrees opportunities exist to deaccession items. During the course of our review
we found that most of the libraries had deaccessioned only a handful of items. One
exception is the Johnson Library, which had deaccessioned over 22,000 items, more than
114 of its original collection               C}. As the volume of Presidential gifts have
grown, and size limitations effectively placed on Presidential libraries by the 1986
Presidential Libraries Act, it has become even more important that NARA focus its
limited resources on those gifts that truly warrant long-term retention. The issuance of
more detailed deaccessioning policy and procedures should provide NL with an
opportunity to expand library deaccessioning programs.


2 Deaccessioning is defined as officially removing an item from a museums collection following 

established criteria and guidelines. 

3 In terms· of museum objects, the term value applies to historic, evidentiary, informational, intrinsic, 

commemorative, or display value, and not solely monetary value. 



                                                                                                              11
                                                                    OIG Audit Report No. 08-01


Recommendation 3

The Assistant Archivist for Presidential Libraries should develop detailed policy and
procedures for deaccessioning artifacts, ensure collections are reviewed, and determine if
digitization of deaccessioned items is warranted.

Management Response

Management concurred with our recommendations.



Artifacts are not Stored in Appropriate Space

Our review revealed three-quarters of the Presidential libraries are not maintaining
artifacts in appropriately environmentally controlled space. This is the result of facilities
constructed prior to the promulgation of modem environmental control standards
currently defined in NARA 1571, Archival Storage Standards. The storage of artifacts in
an environment that falls outside the parameters ofNARA 1571 may contribute to the
deterioration of artifacts.

We found that eight of the 12 Presidential libraries report none of their artifacts are
maintained in appropriate space, as defined by NARA 1571, Archival Storage Standards.
This standard applies to all new facility acquisitions and major renovations on or after
October 1, 2001. Therefore, facilities built or acquired prior to this date were not
required to meet the standard. The eight libraries not meeting the appropriate space
requirements were built between 1941 and 1991. NL and the Facilities and Property
Management division are working to identify and address these issues as funding allows.
The conditions at these facilities, including recommendations for repairs and renovations,
have been noted in Building Condition Reports, and the costs have been factored into the
annual Repair and Renovation and Capital Improvement Plans. Corrective actions are
being taken as funding allows. Additionally, auditors found staff at these libraries were
monitoring temperature and humidity fluctuations in an effort to maintain as stable an
environment as possible given building age and infrastructure. While these facilities are
not bound by NARA 1571 to meet current standards concerning temperature and
humidity controls, maintaining artifacts in space that is not compliant with current
environmental standards aids in the deterioration of items and thus increases the costs
associated with their preservation.

Because NARA and the Office of Presidential Libraries continue to work together to
identify and address facility related issues concerning appropriate environmentally
controlled space, and many of the necessary renovations and repairs are contingent on
NARA receiving additional funding, we are making no recommendations concerning this
finding.




                                                                                            12
                                                                                 OIG Audit Report No. 08-01


All Artifacts Requiring Preservation have not been Identified

NL has not identified all artifacts requiring preservation and captured such infonnation in
a systematic manner. This condition exists as a result of resource constraints coupled
with a lack of concise, specific guidance. Furthennore, the lack of a single automated
collections management system prior to 2003, and the current lack of data standards, has
hindered NL's ability to unifonnly capture and report infonnation concerning artifact
condition. Title 44 of the United States Code assigns responsibility for the preservation,
repair, and rehabilitation of material transferred to NARA to the Archivist. As a result of
this condition NARA lacks assurance artifacts are being targeted for and receiving
appropriate conservatory care.




Pictured: Framed picture of Nancy Reagan with tape, glue, and damage to the frame; deteriorating
"Ron" hat. These items, in need of conservation treatment, were observed by auditors during the conduct
of the audit.

Our review revealed artifacts have not been systematically surveyed in an effort to obtain
infonnation concerning their condition. Accordingly, items requiring preservation,
including those that are "at risk", have not been consistently identified. We found that
both the Kennedy and Roosevelt libraries had captured condition infonnation on all of
their artifacts, prioritized those needing treatment, and captured the infonnation in i/O
allowing for sorting and reporting of the infonnation. 4 However, at other libraries,
condition infonnation was not systematically captured or recorded in i/O or some other
automated system, precluding any system-wide approach or examination.

Guidance in Libraries 1401 states that staff may use the annual 5 percent inventory of
non-HVOs to capture condition infonnation about items. For those libraries that have not
yet completed a full inventory, condition infonnation about their collection will not be
captured until such time as a full inventory is complete. Furthennore, the vagueness of


4 Capturing condition information on artifacts is the first step in developing a comprehensive list of "at
risk" items. It is also necessary to develop criteria for ranking "at risk" items and prioritizing their
treatment since limited funding will not allow for treatment of all "at risk" items.


                                                                                                             13
                                                                     OIG Audit Report No. 08-01


the guidance, and the lack of a standard automated collections management database
prior to 2003, has resulted in the lack of a uniform approach to collecting and compiling
information concerning the condition of all items in the museum collection. Title 44 of
the United States Code, Chapter 21, Section 2109, states "the Archivist shall provide for
the preservation, arrangement, repair and rehabilitation ... ofrecords or other
documentary material transferred to him as may be needful or appropriate ... ". Internal
control standards also require the capture of information necessary for managers to
determine whether they are meeting performance goals, goals for accountability, and
complying with the requirements of laws and regulations. As a result NARA lacks the
information necessary to systematically identify and rank artifacts requiring preservation
and lacks assurance those items most deserving of preservation are receiving proper care.

Recommendation 4

The Assistant Archivist for Presidential Libraries should

a. 	 develop a methodology and employ resources to survey, identify, document, and rank
     artifacts needing preservation/conservation;

b. 	 ensure such information is captured in a standard, consistent manner in i/O (in
     accordance with recommendation 2.b.)

Management Response

Management concurred with our recommendations.



Significant Deficiencies Identified at the Ronald Reagan Library

Inadequate Internal Controls
The audit identified significant internal control deficiencies over artifacts entrusted to the
Ronald Reagan Library. Since artifacts were transferred to the Ronald Reagan Library in
1991, the internal control environment has exposed them to all levels of risk, including
loss, theft, damage, and decay. This condition resulted because adequate management
controls were neither implemented nor properly monitored. GAO Standards for Internal
Control in the Federal Government states that control activities (i.e. management
controls) help ensure actions are taken to address risk and are an integral part of an
entity's ... accountability for stewardship of government resources. As a result of
inadequate internal controls the Ronald Reagan Library is unable to adequately account
for more than 80,000 artifacts, representing over 80 percent of its collection and may
have experienced loss or pilferage the scope of which will likely never be known.

In order to conduct the audit at the Ronald Reagan Library, the auditors requested an
inventory list from which samples could be selected and inventory could be verified.
However, the library was not able to provide us with a complete, reliable list reflective of



                                                                                             14
                                                                              OIG Audit Report No. 08-01


the entire collection. We found that information necessary for the identification, location,
and verification of artifacts was missing, incomplete, and erroneous. Specifically, we
found:

    • 	 Artifacts had been separated from their controlling documentation ("pink
        sheets"s) and shelved, whiie information concerning their location was not
        recorded on the pink sheets nor consistently recorded anywhere else. We found
        that this controlling documentation was not being maintained in an orderly and
        controlled manner and observed pink sheets in numerous boxes throughout the
        museum storage area, and lying loose on vacant shelves throughout the storage
        area.
    • 	 Seventy nine (79) separate museum collection databases containing 37,192
        records. However, after removing duplicate entries the registrar estimates there
        are approximately 7,976 original records. However, not all ofthese records
        contain the information necessary for locating and verifying the artifact.
    • 	 Catalog worksheets for approximately 2,000 items that have been processed.
        However, item location on many of these sheets has not been recorded, or the
        item has been moved since the sheets were prepared, limiting their usefulness in
        locating items.
    • 	 The i/O database contained records for only 1,830 items. Of these, records for
        254 items did not contain sufficient information for locating the item, and 149
        incorrectly recorded the location of items as being "on exhibit" when in fact the
        exhibit was taken down approximately six years ago.




Pictured: Inventory control sheets (e.g. "pink sheets" and catalog worksheets) observed by auditors in
the general collections storage area. The "pink sheets" were separated from the individual items without
recording location information.

The registrar estimates in the "best case" scenario there is sufficient information to allow
for the location and verification of 10,595 artifacts. In addition, 5,801 books and 1,350
textual gifts were transferred to the library's collection. Therefore, out of an estimated


5"Pink Sheets" are controlling documentation attached to each artifact and contain information from the
White House Gift Unit, such as item description, number, and donor information.


                                                                                                           15
                                                                        OIG Audit Report No. 08-01


collection of 100,000 artifacts 6 , at best 17,746 can be accounted for. However, auditors
have serious concerns about the validity of this information based on internal control
deficiencies at the Reagan Library discovered during the course of audit field work.

The auditors performed sampling based on the limited information available and found:

    • 	 Of 26 items that were supposed to have been in two boxes not yet unpacked, we
        were unable to locate nine of the items.
    • 	 Of 21 items we sampled from the most recently completely inventory of HVOs
        (FY 2006), which indicated all items were accounted for, we were unable to
        locate one item.
    • 	 The recently completed annual 1,000 item non-HVO inventory revealed that 198
        items could not be located.

Inadequate Storage Conditions
We found the museum storage area was not configured to allow for appropriate storage of
various types of artifacts, especially given the Reagan Library is located in an earthquake
prone area. Museum staff shared our concerns about this condition. We observed:
    • 	 artworks stacked horizontally, one on top of the other, resulting in damage to the
        items;
    • 	 vases and sculptures, unwrapped and some lying on their sides, on open shelves;
    • 	 items stored on exposed upper shelves, some contacting water and steam pipes, as
        well as sprinkler heads;
    • 	 badly deteriorated items and items that were missing identification numbers; and
    • 	 fixed shelves that did not pull out, requiring the removal of items on the front of
        the shelves in order to reach those at the back, a task that is both time consuming
        and potentially detrimental to the condition of the items.



                                                                    Pictured: Open-faced
                                                                    shelving upon which
                                                                    unsecured HVOs at the
                                                                    Reagan library are stored.




6This figure is based on information contained in NARA's Performance Measurement and Reporting
System.


                                                                                                 16
                                                                  OIG Audit Report No. 08-01




 Pictured: Artwork
 and other artifacts
 stacked horizontally
 on top of one another.




Conditions noted at the Reagan Library were directly attributable to inadequate
management reviews and oversight; inadequate controls over vulnerable assets, and; a
lack of accurate and timely recording of transactions (e.g. the failure to properly record
actions related to the inventorying and movement of artifacts). Standards for Internal
Control in the Federal Government identifies five standards for internal control- control
environment, risk assessment, control activities, information and communication, and
monitoring. These controls stipulate, among other things, that vulnerable assets are to be
safeguarded and periodically counted and compared to control records, and transactions
(e.g. recording the location of items as they are moved or unpacked) are to be accurately
and promptly recorded. Additionally, internal controls should be designed to provide
reasonable assurance regarding prevention of or prompt detection of unauthorized
acquisition, use, or disposition of an agency's assets.

As a result of these deficiencies, artifacts entrusted to NARA's care at the Ronald Reagan
library, cannot be adequately accounted for or produced on demand within a reasonable
period of time. Stafflack the information necessary to identify and verify artifacts on
display, which are often among the most valuable items in the collection. In addition, the
inability to account for and maintain adequate control over artifacts has impeded the
NARA ~IG's efforts to investigate theft allegations against a former Reagan Museum
employee. Furthermore, items have been damaged due to inappropriate storage.

Recommendation 5

The Assistant Archivist for Presidential Libraries should take the following actions in
regard to the Ronald Reagan Presidential Library and Museum:

a. Develop a plan for systematically identifying and inventorying every artifact in the
   museum storage and display areas in as expedient a manner as possible;

b. Compare the results of the physical inventory to the White House Gift Unit database,
   or similar index, to identify discrepancies and undertake to adequately resolve these
   discrepancies;



                                                                                          17
                                                                    DIG Audit Report No. 08-01


c. 	 Implement appropriate internal controls, monitor their effectiveness, and document
     the results;

d. 	 Procure storage hardware that is appropriate for both the type of artifact and the fact
     the library is in a seismic zone and better configure the museum storage area in order
     to minimize damage to the artifacts and improve the ease of access to them.

Management Response

Management concurred with our recommendations.




                                                                                           18
                                                                OIG Audit Report No. 08-01




                                 Appendix A 





*Museum personnel may be comprised of curators, registrars, exhibit designers, exhibit
specialists, and museum technicians and aides.



                 Number of Artifacts per Presidential Library
                                                                           iii Hoover

   110000                                                                  III Roosevelt
   100000                                                                  o Truman 

    90000 
                                                                o Eisenhowe
    80000                                                                  III Kennedy
    70000                                                                  lEI Johnson
    60000                                                                  III Nixon
    50000
                                                                           iD Ford
    40000
                                                                           III Garter
    30000
    20000 
                                                                iii Reagan

    10000 
                                                                o Bush
        o                                                                  o Clinton




                                                                                           19
                                                                               OIG Audit Report No. 08-01




                                         Appendix B 

    Library~useurn       Date Opened                Date 100 Percent           Amount of Time Taken
                                                    Inventory Completed        to Account for
                                                                               InventOJY
    Hoover               1962                       1996                       34 Years
    Roosevelt            1941                       Projected Dec.             Approx.
                                                    2008                       67 Years
    Truman               1957                       1985                       28 Years
    Eisenhower           1953 (See Note 1)          December 2006              53 Years
    Kennedy              1966 Waltham I             July 2004                  38 Years
                         1979 Current
                         Location
    Johnson              1971                       Projected 2018             Approx.
                                                                               47 Years
    Nixon                1975 (See Note 2)          Projected 2027             Approx.
                                                                               52 Years
    Ford                 1981                       July 2005                  24 Years
    Carter               1986                       Projected 2027             Approx.
                                                                               41 Years
    Reagan               1991                       No Projected Date          N/A
    Bush                 1997                       Projected 2022             Approx.
                                                                               25 Years
    Clinton              2004                       Projected 2093             Approx.
                                                                               89 Years

Note 1 - The West Wing of the Eisenhower museum was opened in 1953 with construction underway for
the East Wing. The building with its two wings was dedicated in October 1954. The building remained
with the two wings until 1970 and the building was closed for 18 months for remodeling ofthe existing
wings and the addition of a much larger wing, doubling the size of the previous structure and increasing the
exhibition space to 30,000 square feet, the addition of storage rooms, and office space. The Eisenhower
Museum IHome were operated from 1947 to 1966 by the Eisenhower Foundation, a private non-profit,
501 (c) 3 organization.

Note 2 - The private Nixon Library opened July 19, 1990, with an addition added in August of 2004. Some
time in 1975 a repository began at the Pacific Southwest Regional Archives at Laguna Niguel- it included
deeded and undeeded material. The Laguna Niguel collection was transferred to the Nixon Library under
an interim operating agreement in August of 2006 in anticipation ofthe Nixon Library becoming a federal
facility. The transition date is scheduled for July 11,2007.




                                                                                                         20
                                                                                 OIG Audit Report No. 08-01




                                          Appendix C

              Library/~useum        ~issing              Items                  Percent of
                                    Artifacts            Deaccessioned to       artifacts with
                                                         Date                   linked image
                  Hoover            59                   165                         69%
                 Roosevelt          206                  806                         68%
                  Truman            134                  83                           0%
                Eisenhower          243                  3                           < 1%
                 Kennedy            0                    14                          33%
                  Johnson           8                    22,107                      < 1%
                                    See Note 6
                    Nixon           N/A                  0                            0%
                                    See Note 4
                     Ford           133                  Unknown                     100%
                                    See Note 5
                    Carter          N/A                  2                            1%
                                    See Note 4
                   Reagan           N/A                  Unknown                      0%
                                    See Note 3
                     Bush           N/A                  0                           < 1%
                                    See Note 4
                   Clinton          N/A                  0                            0%
                                    See Note 4

Note 3 - The Reagan Library has not yet inventoried any of its artifacts. Once a physical inventory is
complete, Reagan will then have to compare the results to an inventory master list (if a reliable list can be
located) to determine if items are missing.

Note 4 - No high value object items (HVOs) have been noted as missing since annual HVO inventories
have been conducted. However, until a 100 percent physical inventory is complete and compared to an
inventory master list, it will not be know whether there are unlocated items.

Note 5 - The Ford Library and ~useum completed a 100 percent physical inventory around July 2005 and
then compared this inventory to a "master" list. This resulted in the identification of 1,114 anomalies.
Through research, this list has been reduced to 133 items as of this time. Ford is going to continue its
research through 2007 in an effort to resolve the status of these remaining items. Anything that remains
unresolved at the end of2007 will be officially identified as missing.

Note 6 - These 8 items had been physically accounted for prior to being noted as missing during a 1989
HVO inventory.




                                                                                                            21
                  National Archives and Records Administration
                                                                                                               860] .-Idelphi Rood
                                                                                              College Park, Marl'land ]074G-r500]



Date       October 24. 2007

To:        Paul Brachfeld, Inspector General

From:      Office of Presidential Libraries (NL)

           NL Response to OIG 07-12. Audit of the Controls Over Presidential Library Artifacts
Subject:

           Please find attached our comments to the above referenced audit report. The comments
           reflect a thorough review of the draft report provided to us on September 19,2007. If you
           have any questions conceming our comments, please contact me or Bill Hanis (7-1597).




           SHARON K. FAWCETT
           Assistant Archivist for
           Presidential Libraries

           Attachment




                                   :V~R.·1   ',I   lIl'h SIlL' is liIlI):   \\'lI'\\,urcliil'l',\,g(JI'
 NL Comments: OIG 07-12, Audit of Controls Over Presidential Library Artifacts

 NL concurs with the recommendations presented in this report with the exception of
 recommendation 2(a) regarding the approach to identifying and verifying the deletion of
 records from the automated system. Though understanding the intent of the recommendation,
 NL may propose an altemative solution to achieve this goal, but fUliher study is necessary
 before making a final decision on the approach.

 General Comment: The Office of Presidential Libraries (NL) has worked within limited
 resources and severe budget constraints to effect changes in artifact management and to
contain risk. New procedures were established in 1998 to provide extensive controls over
incumbent Presidential gifts. These procedures, with modifications to incorporate new
technologies, have been in place throughout the current Presidential Administration and will
provide NARA with a full catalog of artifacts that will enable extensive management controls
from the inception of the Library. Additionally, all artifacts and gifts received from the White
House by our curatorial unit are housed with appropriate care to ensure their physical security
and preservation. Though complete inventories were not available at many libraries because
of the history of these collections, NL has sought to manage the risks to the collections
through 100% inventories of Head of State gifts and the establishment and yearly review of
valuable and vulnerable item inventories. Five of the twelve Presidential Libraries have now
completed 100% inventories of their artifact collections.

Additionally, it should be noted that specialized collections management systems have not
been in use for an extended period of time either at Libraries or more broadly in the museum
community. Populating these systems with data that reflects the full depth of the accumulated
textual documentation on collections is a lengthy process for any collection. This is also true
with respect to capturing digital images of artifacts.

Executive Digest, Page I, Paragraph 4:

       NL acknowledges that the artifact holdings count in the Performance Measurement
       and Reporting System for the number of artifacts stored at the Reagan Library is
       inaccui·ate. Our review indicates, the number is most likely derived from the total
       number of record entries in the original Reagan Administration White House Gift
       Database, 73,732, combined with post-Presidential accessions. The Gift Office data
       includes thousands of items that were sent to charity, identified as consumables, or
       otherwise not transferred to NARA. The exact number of items will not be known
       until a 100% inventory is complete.

Executive Digest, Page 2, Paragraph 2:

       The repoli acknowledges only in a limited way the strides that have been made in
       gaining control over artifact collections. At the time of this report, five libraries have
       completed 100% inventories of artifact holdings. In addition, the establishment of a
       curatorial unit in 1998 resulted in immediate improvements, not only in more accurate
       and complete inventories for the Head of State gifts and for a substantive portion of




                             NARA 's \I'cb sitc is http://lI'\\·\\·.archives.go\,
        the Clinton Administration domestic gifts, but also in improved housing and storage of
        the materials. The gifts and aIiifacts received from the Bush Administration have
        received exemplary curatorial care since the beginning of the Administration. The
        items are inventoried and assessed upon arrival and provided with appropriate care and
        housing to ensure their physical security.

Page 5, Paragraph 2:

        The "chaotic and uncontrolled" history of collections prior to receipt by NARA, and
        the resulting incomplete or inaccurate initial information received by NARA was also
        exacerbated by the lack of clear authorities governing the receipt and disposition of
        Presidential gifts prior to the passage of the Foreign Gifts and Decorations Act (5 USC
        7342), the Ethics in Government Act (5 USC, App 4-102), and statutes facilitating the
        management of excess government property (40 USC 484-486).

Page 6, Paragraph (a):

       NL notes the OIG concern about inventory control during the Project phase and has
       outlined protocols for inventory control of any container opened during the project
       phase.

Page 7, end of Paragraph 1:

       Protocols established for handling the artifacts and gifts of the current administration
       include the separation of high value items before transit to the Project. NL considers it
       highly doubtful that high value objects will be commingled among non-high value
       objects.

Page 9, Paragraph (c):

       NARANET does not have the capacity to support digital imagery in large quantities.
       As a result, NL has not developed specific guidance to address a process that currently
       has not been a viable alternative. However, during program reviews, NL has
       encouraged Libraries to document high value artifacts with digital images.

Page 11, Paragraph 1:

      Deaccessioning in general has been the focus of extensive debate in the broader
      museum community, reflecting the sensitivities all museums face when considering
      deaccessioning actions. No one philosophy prevails. NARA and the Libraries must
      approach deaccessioning mindful of the unique nature of individual Library
      collections, the evolution of collection priorities, and the sensitivities of donors.
      However, that being said, NL certainly agrees that there are opportunities to expand
      deaccessioning and to expand and finalize previously issued draft guidance on
      disposal.




                              NARA   's   web sire is hrrp:l/wlI'lI'.archives.gol'
·.



     Page II, Recommendation 3:

            NL recommends deleting "if digitization" and replacing \vith "digItal images",

     Page 13, Paragraph 1:

           Though all Libraries have not captured risk assessment information in a single
           automated tool, Libraries have worked to identify ariifacts at risk and in need of
           treatment. Both Eisenhower and Truman have captured condition information about
           artifact holdings and identified treatment priorities in paper format.

     Appendix C:

           The Libraries have 100% inventories for head of state gifts,

           The Roosevelt Library conducted a major physical inventory of its museum collection
           in 1977-1978. Although that inventory was not as thorough as the current 100%
           inventory, nor done in accordance with modem museum practices, it created a baseline
           from which museum staff could operate.




                               NARA ',\' ll'eb sire is hltp:l/l\'l\'l\',archil'l.:,\',gOl'
